Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  EARLY OUTCOMES SHOW
 LIMITED PROGRESS FOR THE
  TRANSFORMED MEDICAID
 STATISTICAL INFORMATION
          SYSTEM



                    Daniel R. Levinson
                     Inspector General

                     September 2013
                     OEI-05-12-00610
EXECUTIVE SUMMARY: Early Outcomes Show Limited Progress for the
Transformed Medicaid Statistical Information System
OEI-05-12-00610

WHY WE DID THIS STUDY

In response to a Congressional request, the Office of the Inspector General (OIG) agreed
to determine the status of national Transformed Medicaid Statistical Information System
(T-MSIS) implementation and determine whether early outcomes indicate that T-MSIS
data will be complete, accurate, and timely upon national implementation. T-MSIS is
designed to be a detailed national database of Medicaid and Children’s Health Insurance
Program information to cover a broad range of user needs, including program integrity.
T-MSIS is a continuation of the Centers for Medicare & Medicaid Services’ (CMS) past
attempts to improve the current nationally available Medicaid data after OIG and others
found that the current data were not complete, accurate, or timely.

HOW WE DID THIS STUDY

To complete this early implementation review, we analyzed project schedules, meeting
minutes, and milestone achievements from 12 States that volunteered to work with CMS
on the planning and development of T-MSIS. These States were in a position to be some
of the first States to implement T-MSIS. We also analyzed CMS’s T-MSIS
documentation regarding States’ ability to report complete and accurate T-MSIS data.
Finally, we conducted structured interviews with CMS staff. 

WHAT WE FOUND

Overall, as of January 2013, CMS and the 12 volunteer States had made some progress in
implementing T-MSIS. However, most other States had not started implementing
T-MSIS; and they reported varied timeframes for when they plan to begin. CMS has not
established a deadline for when national T-MSIS data will be available.

Further, early T-MSIS implementation outcomes raised questions about the completeness
and accuracy of T-MSIS data upon national implementation. None of the 12 volunteer
States can make all T-MSIS data elements available. Further, both CMS and the
12 States expressed concerns about the accuracy of the data they could provide upon
implementation.

WHAT WE RECOMMEND

Although CMS and 12 volunteer States have made some progress with T-MSIS, it
remains unclear whether T-MSIS will result in complete, accurate, and timely national
Medicaid program integrity data upon implementation. We recommend that CMS, to
help create a fully functional T-MSIS: (1) establish a deadline for when national T-MSIS
data will be available; (2) ensure that States submit required T-MSIS data; and (3) ensure
that T-MSIS data are complete, accurate, and timely upon T-MSIS implementation.
CMS concurred with our recommendations.
TABLE OF CONTENTS


Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................12 

           Twelve volunteer States made some progress implementing 

           T-MSIS; however, most other States had not started ....................12 

           CMS has not established a deadline for when national T-MSIS 

           data will be available .....................................................................14 

           Volunteer States indicated that their data systems did not have
           all T-MSIS data elements...............................................................14 

           CMS and volunteer States reported concerns about the accuracy 

           of T-MSIS data ..............................................................................17 

Conclusion and Recommendations ............................................................19 

           Agency Comments and Office of Inspector General Response.....22 

Appendixes ................................................................................................24 

           A: Implementation Milestones ......................................................24 

           B: Description of Documents Reviewed.......................................26 

           C: Definitions of Office of Inspector General Completeness 

           Categories ......................................................................................27 

           D: Progress Toward Milestones ....................................................29 

           E: Availability of Transformed Medicaid Statistical Information 

           System Data Elements by File for All Volunteer States.................32 

           F: Transformed Medicaid Statistical Information System Data

           Elements Available in All Volunteer States....................................35 

           G: Agency Comments ...................................................................37 

Acknowledgments......................................................................................44 

                  OBJECTIVES
                  1.	 To determine the status of the Centers for Medicare & Medicaid
                      Services’ (CMS) national implementation of the Transformed
                      Medicaid Statistical Information System (T-MSIS).
                  2.	 To determine the extent to which the early implementation outcomes
                      and States’ and CMS’s experiences implementing T-MSIS indicate
                      that T-MSIS may result in complete, accurate, and timely national
                      Medicaid program integrity data.

                  BACKGROUND
                  This early implementation review responds to a Congressional request that
                  the Office of Inspector General (OIG) review T-MSIS to determine
                  whether CMS’s plans, milestones, metrics, goals, and data elements meet
                  the needs of entities conducting program integrity activities. In response
                  to the request, OIG agreed to determine the status of national T-MSIS
                  implementation and determine whether early outcomes indicate that
                  T-MSIS data will be complete, accurate, and timely upon national
                  implementation.
                  Previous OIG work found problems with national Medicaid data and
                  recommended that CMS improve the quality of data.1 T-MSIS is CMS’s
                  solution to the known problems in the current nationally available
                  Medicaid data.2
                  Medicaid Data Reporting Requirements
                  States are mandated to report fee-for-service claims and individual
                  encounter data for managed care enrollees to CMS. The Patient Protection
                  and Affordable Care Act (ACA) added a requirement that States report
                  elements that the Secretary deems necessary for program integrity,
                  oversight, and administration. The Medicaid Statistical Information
                  System (MSIS) is the mechanism by which CMS requires States to report
                  these data.3 CMS requires States to report MSIS data quarterly. 4



                  1
                    OIG, Early Assessment of Audit Medicaid Integrity Contractors, OEI-05-10-00210,
                  March 2012; OIG, MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse,
                  OEI-04-07-00240, August 2009; and OIG, Medicaid Managed Care Encounter Data:
                  Collection and Use, OEI-07-06-00540, May 2009.
                  2
                    OIG, Early Assessment of Audit Medicaid Integrity Contractors. 

                  3
                    Social Security Act (SSA) § 1903(r)(1)(F) as added by the Balanced Budget Act of

                  1997, P.L. 105-33 § 4753(a)(1), and amended by the ACA, P.L. 111-148 § 6504, to

                  include data elements the Secretary determines are necessary for program integrity, 

                  oversight, and administration.

                  4
                    CMS, State Medicaid Manual, Pub. No. 45, § 2700.2. 


Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                        1
                  CMS’s statutory enforcement mechanisms for data reporting requirements
                  vary. CMS may withhold Federal matching payments for the use,
                  maintenance, or modification of automated data systems from States that
                  fail to report required data.5 For managed care enrollees, CMS may
                  withhold Federal matching payments for medical assistance to those
                  individuals when States fail to report required data.6
                  Medicaid Statistical Information System
                  MSIS is an extract of States’ Medicaid Management Information Systems
                  (MMIS) and contains claims information from all 50 States and the
                  District of Columbia (hereinafter referred to as States).7
                  MSIS is composed of 5 data files and approximately 400 data elements.
                  There is an eligibility file and there are four claims files (inpatient,
                  long-term-care, pharmacy, and other).
                  CMS intended MSIS as a detailed national database of Medicaid program
                  information to cover a broad range of user needs.8 The database is used
                  for analytical research, program integrity, planning, budgeting, and policy
                  analyses associated with Medicaid. MSIS is the only nationwide
                  Medicaid eligibility and claims database.
                  Difficulties Using MSIS for National Medicaid Program Integrity
                  In previous reports, OIG identified problems with missing or outdated
                  MSIS data that make it an inadequate tool for national Medicaid program
                  integrity data analysis strategies. OIG found that MSIS did not have all
                  data elements necessary for conducting national Medicaid program
                  integrity activities.9 Approximately half of a consolidated set of program
                  integrity data elements identified by CMS and other Federal agencies were
                  not collected from States for MSIS.10 Also, MSIS data were outdated.11
                  OIG found that it took an average of 1.5 years to release MSIS data
                  publicly from fiscal year (FY) 2004 to FY 2006; significant time was lost
                  because States’ initial MSIS data submissions were late.12


                  5
                    SSA § 1903(r)(1)(F).

                  6
                    SSA § 1903(i)(25), added by the ACA, P.L. 111-148 § 6402 (c).

                  7
                    Each State has its own unique MMIS. States use MMIS to process claims and monitor 

                  use of services. 

                  8
                    CMS, MSIS Medicaid Statistical Information System. Accessed at 

                  http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-Topics/Data-and-
                  Systems/MSIS/Medicaid-Statistical-Information-System.html on April 3, 2013. See
                  MSIS Procedures, as well.
                  9
                    OIG, MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse. 

                  10
                     Ibid. 

                  11
                     Ibid. 

                  12
                     Ibid. 


Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                     2
                  Further, OIG identified MSIS accuracy concerns. In a series of reports,
                  OIG found that inaccurate MSIS data hindered the early results of
                  Medicaid integrity contractors.13 Specifically, States invalidated more than
                  one-third of sampled potential overpayments identified by Medicaid
                  integrity contractors mainly because MSIS data were missing or
                  inaccurate.14 Additionally, 81 percent of Medicaid integrity contractor
                  audits reviewed by OIG either did not, or were unlikely to, identify
                  overpayments; in nearly half of these audits, MSIS data were missing or
                  inaccurate.15
                  In addition, OIG found that the lack of complete, accurate, and timely
                  national Medicaid data is also a barrier to CMS’s own program integrity
                  data initiatives, such as the Medicare-Medicaid Data Match Program
                  (Medi-Medi) and the Integrated Data Repository (IDR).16 Specifically,
                  CMS does not use MSIS data for the Medi-Medi program.17 Instead,
                  CMS’s contractors work with participating States to collect data directly
                  from each State’s Medicaid program. Additionally, CMS intends for the
                  IDR to provide a central repository for Medicare and Medicaid data.18
                  However, CMS has not integrated MSIS data into the IDR. The OIG
                  report notes that according to CMS Medicare program integrity staff,
                  MSIS data in their current form are not appropriate to include in the IDR
                  because the data are specific to each State and lack many of the
                  standardized data elements needed for program integrity work.19
                  Finally, in 2012, CMS testified that MSIS was not an effective data source
                  for national Medicaid program integrity activities.20 CMS further stated

                  13
                     OIG, Early Assessment of Audit Medicaid Integrity Contractors; OIG, Early

                  Assessment of Review Medicaid Integrity Contractors, OEI-05-10-00200, February 2012. 

                  14
                     OIG, Early Assessment of Review Medicaid Integrity Contractors. 

                  15
                     OIG, Early Assessment of Audit Medicaid Integrity Contractors. 

                  16
                     OIG, The Medicare-Medicaid (Medi-Medi) Data Match Program, OEI-09-08-00370, 

                  April 2012. 

                  17
                     CMS established the Medi-Medi program in 2001 as a way to identify improper billing
                  patterns by matching Medicare and Medicaid claims information for providers and
                  beneficiaries. Section 6034 of the Deficit Reduction Act added section 1893 of the SSA,
                  which permanently established the Medi-Medi program at section 1893(g), P.L. 109-171
                  § 6034.
                  18
                     CMS established the IDR in 2006 as a central repository for Medicare and Medicaid
                  data. It is intended to help CMS program integrity staff and contractors (including
                  Medi-Medi contractors) prevent and detect improper payments across the Medicare and
                  Medicaid programs. Accessed at http://www.cms.gov/Research-Statistics-Data-and-
                  Systems/Computer-Data-and-Systems/IDR/index.html on March 5, 2013.
                  19
                     OIG, The Medicare-Medicaid (Medi-Medi) Data Match Program. CMS indicated that
                  the IDR would not contain Medicaid claims data until at least 2015.
                  20
                     Peter Budetti, M.D., J.D., Program Integrity Efforts in the Medicare and Medicaid
                  Programs, Testimony before the United State House Committee on Oversight and
                  Government Reform, Subcommittee on Government Organization, Efficiency, and
                  Financial Management, June 7, 2012.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                      3
                  that it was taking steps to create a more comprehensive information
                  management strategy for Medicaid, the Children’s Health Insurance
                  Program (CHIP), and State health systems.21 This included making
                  improvements to MSIS.
                  Transformed Medicaid Statistical Information System
                  CMS’s efforts to improve MSIS will result in a new national Medicaid
                  dataset called T-MSIS. Among CMS’s goals for T-MSIS are improving
                  the completeness, accuracy, and timeliness of the data. CMS also intends
                  for T-MSIS to be a way to limit the number of data requests States receive
                  from CMS. To accomplish these goals, CMS is working with contractors
                  to implement T-MSIS.
                  T-MSIS is a continuation of CMS’s multiple past attempts to improve
                  MSIS. In 2009, CMS conducted a pilot project for a national Medicaid
                  database entitled MSIS Plus.22 CMS followed this with another pilot
                  project for a database entitled MSIS Redesign in 2011.23 CMS’s goals for
                  both of these databases were to create a more complete, accurate, and
                  timely national Medicaid dataset and to limit data requests to States.24
                  T-MSIS pilot project. CMS conducted a pilot project between March 2011
                  and June 2012 to inform the development of T-MSIS. The pilot project,
                  which incorporated lessons learned from the two previous attempts to
                  improve MSIS, had two objectives: (1) identify the data elements required
                  by all stakeholders and (2) identify a technical platform and environment
                  able to accommodate T-MSIS and run stakeholder analytics.
                  At the conclusion of the pilot project, CMS determined that it identified
                  appropriate T-MSIS data elements. Internal CMS stakeholders confirmed
                  that T-MSIS data elements were those that they need from States to
                  conduct business functions and analysis, including national Medicaid
                  program integrity activities.25 In addition, many data elements new to




                  21
                     Ibid.
                  22
                     Robb Miller & Yohannes Birre (CMS), MSISPLUS Pilot Project, presentation at
                  MMIS Conference, Chicago, IL, August 19, 2009. Accessed at
                  http://www.mmisconference.org/MMIS2009_Presentations_PDFs/Wednesday/The%20F
                  uture%20of%20MSIS/Wednesday_MSIS_Birre.pdf on March 29, 2013.

                  23
                     Federal IT Dashboard, MSIS Redesign. Accessed at 

                  http://www.itdashboard.gov/print/investment/project-summary/284 on March 5, 2013. 

                  24
                     Robb Miller & Yohannes Birre, MSISPLUS Pilot Project; Ibid. 

                  25
                     Internal stakeholders include multiple divisions within CMS that may use T-MSIS data

                  in the future: Center for Program Integrity, Center for Medicare & Medicaid Innovation, 

                  Financial Management Group, CHIP, Division of Pharmacy, and Center for Clinical

                  Standards and Quality. 


Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                       4
                  T-MSIS address MSIS program integrity gaps identified by external
                  stakeholders, such as OIG.26
                  CMS also determined how to best construct a data platform to meet the
                  data collection and analytic needs of CMS’s internal stakeholders.
                  T-MSIS Data. There are approximately 1,000 data elements in T-MSIS,
                  an expansion of the approximately 400 data elements collected in MSIS.27
                  In general, CMS created T-MSIS data elements that responded to gaps in
                  MSIS data identified by OIG and other stakeholders.
                  CMS organized T-MSIS into eight files. T-MSIS files include eligibility,
                  third-party liability, managed care plan information, provider, and four
                  claims files (inpatient, long-term-care, outpatient, and pharmacy).
                  CMS plans to make T-MSIS data files available approximately 60 days
                  after the month in which the claims were processed.28 States will have
                  1 month to submit T-MSIS data files (e.g., States will have until the end of
                  February to submit January data). CMS plans to upload files to a data
                  platform within 1 month of receiving States’ T-MSIS data files.
                  National T-MSIS Implementation
                  CMS has taken steps to establish the groundwork for States to begin
                  implementing T-MSIS. CMS completed a number of activities to design
                  T-MSIS so that States could begin implementing it. These activities
                  include clarifying data elements, identifying critical data elements,
                  completing some preliminary activities with States, and releasing data
                  quality rules to States. See Figure 1 for a timeline of these activities.




                  26
                     OIG, MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse.
                  27
                     Jim Gorman (CMS), T-MSIS Pilot Overview, panel presentation at Medicaid Enterprise
                  Systems Conference, Boston, MA, August 20, 2012. Accessed at
                  http://www.mesconference.org/wp-
                  content/uploads/2012/08/Monday_TMSIS_Gorman.pdf on June 12, 2013.
                  28
                     CMS, T-MSIS Implementation Tool Kit, version 2.0, § 1.4, March 12, 2013.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                     5
                  Figure 1: Timeline of T-MSIS Activities


                                                   Pilot project


                                 Kickoff meetings (12 States)


                  Planned implementation phase (all States)


                          Status update meetings (12 States)


                                Mapping exercise (12 States)


                         Readiness assessments (39 States)


                                                         Active




                  Source: OIG analysis of CMS documents and structured interviews, 2013.

                  Clarifying data elements and definitions. CMS published the T-MSIS
                  data elements and definitions in a data dictionary.29 The data dictionary
                  defines the data elements States must submit to CMS for T-MSIS. Along
                  with indicating new data elements for T-MSIS, the data dictionary
                  changed some of the definitions for data elements that States had been
                  submitting as part of MSIS to clarify the information CMS wants States to
                  submit. For example, one MSIS data element is “national provider ID.”
                  CMS instructed the State on which provider identification number to
                  submit for each claim file in the definition. CMS changed this data
                  element in T-MSIS to 10 data elements to reflect the different possible
                  provider IDs.30
                  Identifying critical data elements. Following the pilot project, CMS
                  assessed which T-MSIS data elements would be critical to support
                  Medicaid and CHIP business needs, including meetings with internal
                  stakeholders. As a result, CMS identified a subset of T-MSIS data
                  elements as critical for business needs. Internal stakeholders identified the
                  majority of T-MSIS data elements as critical. For example, the Center for


                  29
                     CMS has released three T-MSIS data dictionaries. CMS released the first dictionary in
                  February 2012, the second in February 2013, and the third in April 2013.
                  30
                     The 10 T-MSIS data elements are: admitting provider national provider identifier
                  (NPI) number, billing provider NPI, dispensing prescription drug provider NPI, health
                  home provider NPI, operating provider NPI, prescribing provider NPI, referring provider
                  NPI, servicing provider NPI, under direction of provider NPI, and under supervision of
                  provider NPI.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                          6
                  Program Integrity identified more than two-thirds of T-MSIS data
                  elements as critical.31
                  Involving States. CMS partnered with 12 States (hereinafter referred to as
                  volunteer States) that volunteered to work with CMS on the planning and
                  development of T-MSIS. These States were in a position to be some of
                  the first States to implement T-MSIS. CMS plans to phase in the
                  remaining States in 2013.32
                  CMS outlined 23 milestones to assist States in implementing T-MSIS.
                  These milestones fall into four general stages: (1) planning, (2) design,
                  (3) development, and (4) testing. CMS estimated that it would take States
                  an average of 9 months to complete these milestones and implement
                  T-MSIS.33 See Appendix A for a full list of these milestones.34
                  Additionally, CMS held a series of meetings with volunteer States
                  between April and December 2012. These meetings focused on volunteer
                  States’ progress in implementing T-MSIS, including discussion of any
                  challenges they may face and possible solutions or strategies to overcome
                  them.
                  In November and December 2012, CMS’s contractor worked with
                  volunteer States to complete a data mapping exercise (hereinafter referred
                  to as data matching exercise).35 This exercise consisted of volunteer
                  States’ verbally confirming whether they could provide data that matched
                  the T-MSIS data elements in the February 2012 T-MSIS data dictionary.
                  The purpose of this exercise was to assess the status of the data dictionary
                  and to identify any needed clarifications. This exercise informed the
                  development of subsequent data dictionaries.
                  Lastly, in December 2012, CMS conducted readiness assessments with the
                  remaining States. CMS inquired about their readiness to begin
                  implementing T-MSIS.


                  31
                     CMS’s Center for Program Integrity, which conducts national Medicaid program
                  integrity activities, is one of the internal stakeholders. See footnote 25. 

                  32
                     The volunteer States include Arizona, Arkansas, California, Michigan, Minnesota, 

                  New Jersey, New Mexico, North Carolina, Oregon, Tennessee, Texas, and Washington. 

                  These States represent approximately 40 percent of the Nation’s Medicaid expenditures. 

                  Jim Gorman (CMS), T-MSIS Pilot Overview; OIG analysis of data from

                  http://kff.org/state-category/medicaid-chip/, accessed on November 21, 2012. 

                  33
                     CMS, Guidance for Automated Data Systems Requirements and Data Elements
                  Necessary for Program Integrity, Program Oversight, and Administration, Version
                  1.0. Provided to OIG on August 15, 2012.

                  34
                     According to CMS staff, States are not required to complete all milestones. 

                  Additionally, States may not need to complete all milestones in order. See Appendix A 

                  for more details. 

                  35
                     CMS retained a contractor to assist with T-MSIS implementation.


Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                       7
                  Releasing data quality rules. CMS released data quality rules that
                  addressed formatting T-MSIS data to all States on April 30, 2013. CMS
                  expects States to apply these rules prior to submitting their T-MSIS data to
                  CMS. These rules address some data standardization concerns that made
                  MSIS data unusable for many national data analysis strategies (e.g., some
                  States submit five-digit ZIP Codes to MSIS while other States submit
                  nine-digit ZIP Codes).
                  T-MSIS Guidance. CMS released a State Medicaid Director Letter on
                  August 23, 2013.36 This letter provided an update to States on CMS’s
                  ongoing effort to improve Medicaid data through T-MSIS.37

                  METHODOLOGY
                  This early implementation review determines the status of T-MSIS
                  implementation as of January 2013. It also assesses the early outcomes
                  from 12 States.
                  Scope
                  Our review focused primarily on the progress CMS and the 12 volunteer
                  States had made.
                  Our review also used the early outcomes from the 12 volunteer States to
                  determine whether T-MSIS will provide complete and accurate national
                  Medicaid program integrity data upon national implementation. We did
                  not assess the timeliness of T-MSIS data submissions. Because the
                  12 volunteer States were not submitting T-MSIS data at the time of our
                  review, we could not determine States’ ability to report T-MSIS data a
                  month after claims were processed or the ability of CMS to release
                  T-MSIS data a month after receiving the data.
                  Additionally, we did not assess individual State data elements or States’
                  capacity to modify their data to comply with T-MSIS requirements.
                  Further, we did not assess the quality of States’ data or the usefulness of
                  those data in conducting State program integrity activities.




                  36
                     CMS, State Medicaid Director Letter, August 23, 2013, (SMD# 13-004). Accessed at

                  http://www.medicaid.gov/Federal-Policy-Guidance/Downloads/SMD-13-004.pdf on

                  September 3, 2013. 

                  37
                     Included in this update was a change to CMS’s implementation deadline. In the letter, 

                  CMS stated its goal is to have all States submitting monthly T-MSIS data by 

                  July 1, 2014. This change was made after OIG completed its analysis and has no effect 

                  on the findings of this report. 


Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                        8
                  Data Sources
                  Document Request. We requested from CMS all documents related to the
                  status of T-MSIS implementation and CMS’s plans for national
                  implementation. Primarily, these documents included:
                           	 meeting minutes between CMS and volunteer States (occurred
                              between April and December 2012),
                           	 project schedules and status updates (as of January 2013),
                           	 State readiness assessment notes (occurred primarily in
                              December 2012),
                           	 T-MSIS data dictionaries, and
                           	 T-MSIS Implementation Tool Kit.
                  See Appendix B for a detailed description of these documents. We
                  received documents from CMS through April 2013.
                  Data Matching Exercise. CMS’s contractor conducted a data matching
                  exercise with each volunteer State. During this exercise, volunteer States
                  verbally informed the contractor whether each T-MSIS data element that
                  was in CMS’s original February 2012 data dictionary was available in its
                  data systems. The contractor entered the results of this exercise into a
                  spreadsheet. CMS provided the results spreadsheet to OIG.
                  The exercise reviewed 769 data elements. This is fewer than the
                  approximately 1,000 data elements that CMS expects T-MSIS to have
                  upon completion. At the time of our data collection, CMS was still
                  determining the final data elements. For example, during the exercise,
                  CMS identified 29 of the 769 data elements for removal.
                  Structured Interviews. Between November 2012 and January 2013 we
                  conducted multiple structured interviews with CMS officials and CMS’s
                  contractor responsible for designing and implementing T-MSIS. We
                  asked about the progress toward national T-MSIS implementation and
                  CMS’s plans.
                  Determining the Status of T-MSIS Implementation
                  To determine the status of T-MSIS implementation as of January 2013, we
                  analyzed project schedules, meeting minutes, and information gathered
                  during structured interviews with CMS and CMS’s contractor. We
                  reviewed project schedules and meeting minutes to identify the volunteer
                  States’ progress on completing the milestones. We used the milestone
                  checklist from the T-MSIS Implementation Tool Kit to identify the
                  milestones that CMS laid out for States. We reviewed the meeting
                  minutes and information gathered during structured interviews to identify

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)              9
                  steps CMS took to implement T-MSIS and move forward with additional
                  States. We also reviewed the meeting minutes and information from
                  structured interviews for indications of which milestones States had
                  completed.
                  Determining Early Outcomes From Volunteer States
                  We determine early outcomes from volunteer States for two issues:
                  completeness and accuracy.
                  Completeness. We analyzed 740 data elements in the data matching
                  exercise results spreadsheet to determine early outcomes from the
                  volunteer States. We excluded the 29 data elements that CMS identified
                  for removal. Specifically, we reviewed volunteer States’ responses for
                  indications of their ability to make T-MSIS data elements available to
                  CMS.
                  We calculated the percentage of all data elements in three categories for
                  all volunteer States. The three categories we created to reflect volunteer
                  State responses to T-MSIS data element availability were: (1) match
                  available, (2) match available but data may have gaps, and (3) match not
                  available. See Appendix C for a definition of each category. We
                  completed this calculation for each T-MSIS file and each volunteer State.
                  Further, we calculated how many and what percentage of all T-MSIS data
                  elements all volunteer States had available.
                  We repeated these calculations for two subsets of T-MSIS data elements:
                  (1) data elements deemed critical by CMS entities conducting program
                  integrity work and (2) data elements that were included in MSIS.
                  Accuracy. We analyzed the data matching exercise results spreadsheet
                  and information from interviews with CMS to determine whether
                  volunteer States’ early outcomes indicated potential accuracy concerns.
                  We analyzed the spreadsheet and information from interviews with CMS
                  to determine the extent to which early outcomes indicated that: (1) data
                  will reflect T-MSIS data dictionary definitions and (2) source data may be
                  inaccurate.
                  We analyzed notes in the spreadsheet in which CMS, CMS’s contractor,
                  or volunteer States indicated potential accuracy concerns. When possible,
                  we counted instances in which such notes indicated accuracy concerns and
                  calculated the percentage of data elements with accuracy concerns.
                  Limitations
                  This study reports on CMS’s plans for national implementation of
                  T-MSIS, as well as the status and outcomes of national implementation as
                  of January 2013. OIG recognizes that the status of implementation and

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)            10
                  even CMS’s plans may have changed by the time OIG releases this report.
                  Further, given the early nature of national implementation, we were unable
                  to assess the States’ ability to submit complete, accurate, and timely data.
                  Rather, we used the volunteer States’ early implementation outcomes as
                  indicators for what CMS and the remaining States might encounter during
                  implementation.
                  At the time of our data collection, the data matching exercise was the best
                  available proxy for the data that volunteer States had available. Because
                  the exercise covered 740 of the 1,000 data elements in T-MSIS, it is a
                  strong indicator of States’ ability to provide the T-MSIS data elements.
                  However, the data elements in the exercise were not the final version of
                  T-MSIS data elements that CMS will ask States to submit. Subsequent to
                  this exercise, CMS made definitional changes and refined record layouts
                  in an updated data dictionary. This means that States’ ability to submit the
                  final data elements may differ from our results. In addition, the data from
                  the exercise are self-reported State data. We did not verify whether States
                  could actually provide the data that they reported they could.
                  We could not calculate a percentage for all types of accuracy concerns
                  mentioned by CMS and States. When we could confidently interpret a
                  comment on the data matching exercise results spreadsheet as a potential
                  accuracy concern, we counted it and calculated a percentage. In other
                  instances, when we could not confidently interpret a comment as a
                  potential accuracy concern, we relayed the nature of the concern.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)             11
                  FINDINGS
                  Twelve Volunteer States Made Some Progress
                  Implementing T-MSIS; However, Most Other States
                  Had Not Started
                  As of January 2013, the 12 volunteer States had made progress toward
                  T-MSIS implementation, but most of the remaining States had not started.
                  The volunteer States completed, on average, 7 of the 23 T-MSIS
                  milestones in the 6 months from when implementation began in July 2012.
                  Seventeen additional States indicated that they were ready to start
                  implementation in 2013. The remaining 22 States did not have a
                  timeframe for starting implementation.
                  While volunteer States made some progress, they may exceed
                  the estimated implementation time
                  As of January 2013, all volunteer States had completed some of the
                  T-MSIS implementation milestones but no volunteer State had completed
                  all of them.
                  Volunteer States made the most progress in the first stage, planning. All
                  volunteer States completed or partially completed the seven milestones
                  associated with this stage. However, only five volunteer States completed
                  all of the milestones associated with this stage.
                  No volunteer States completed the other three stages—design,
                  development, and testing. Further, four volunteer States have not started
                  working on milestones associated with development and testing. Table 1
                  is a broad overview of the progress that volunteer States made in the
                  four stages. For a complete breakdown of volunteer States’ progress by
                  individual implementation milestone, see Appendix D.
                  Table 1: Volunteer States’ Progress Toward T-MSIS Implementation
                  Milestones

                   Milestone Stages                                        Completed         Partially Completed     Not Started

                   1. Planning (7 milestones)                                          5                        7             0

                   2. Design (6 milestones)                                            0                        12            0

                   3. Development (3 milestones)                                       0                        8             4

                   4. Testing (7 milestones)                                           0                         7            5

                  Source: OIG analysis of T-MSIS project schedules and volunteer State status updates, 2013.

                  Volunteer States experienced some delays that may have hindered their
                  progress, including delays finalizing contracts to assist with T-MSIS
                  implementation. Securing contracts is part of identifying T-MSIS project
                  resources, which is a stage 1 milestone, but delays in contracts also affect

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                                          12
                  States’ ability to complete other milestones, such as mapping their data
                  elements to the T-MSIS data elements. Five volunteer States indicated
                  that they faced delays of this nature.
                  Volunteer States also faced delays because CMS did not release needed
                  information when it initially expected. For instance, CMS initially
                  expected that it would release the revised T-MSIS data dictionary in
                  September or October 2012. In fact, CMS did not release the revision
                  until February 2013, delaying volunteer States’ ability to re-map their data
                  elements to T-MSIS data elements. Further, CMS did not release the data
                  quality rules until April 2013. Volunteer States need these rules to
                  develop and test data verification/business rules and to validate
                  successfully the eight T-MSIS data files.
                  Possibly because of these delays volunteer States completed fewer
                  milestones, on average, than would be expected at this point in CMS’s
                  estimated 9-month completion timeframe. Volunteer States worked on
                  milestones for at least 6 months by the time of our data collection, but
                  were able to complete only between 3 and 13 of them, mainly in the
                  planning phase. To stay on schedule to complete the milestones within the
                  estimated 9-month completion time, States would have to complete the
                  design, development, and testing of T-MSIS in 3 months.
                  The remaining 39 States may not face the same challenges that volunteer
                  States faced. CMS’s experiences with the volunteer States may enable it
                  to work with the remaining States to avoid similar challenges and thus
                  have fewer delays. In addition, CMS has released the data quality rules,
                  so the remaining States will not have to wait for those as they begin
                  implementing T-MSIS. However, the remaining States may still
                  experience delays, such as those related to finalizing contracts or
                  challenges unique to their States.
                  The remaining 39 States reported varied timeframes for when
                  they can begin implementing T-MSIS
                  As of the December 2012 readiness assessments, 17 of the remaining
                  39 States indicated to CMS that they anticipate being ready to begin
                  implementing T-MSIS in 2013. The final 22 States did not indicate when
                  they could begin implementing T-MSIS.38 These States listed various
                  reasons for their hesitation, including lack of information about T-MSIS
                  and competing demands for State resources.



                  38
                    Included in the group of 22 States that did not have a timeline for T-MSIS
                  implementation are 4 States for which OIG did not receive records of their readiness
                  assessments. These States are Iowa, Missouri, New Hampshire, and Wyoming.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                        13
                  CMS Has Not Established a Deadline for When
                  National T-MSIS Data Will Be Available
                  CMS does not have a specific timeframe for when it will begin to rely on
                  T-MSIS as the sole national Medicaid dataset. Further, CMS does not
                  have a timeline for switching completely from the use of MSIS data to
                  T-MSIS data. Instead, the switch from MSIS to T-MSIS will happen over
                  time on a State-by-State basis. CMS staff indicated that each State will
                  switch from MSIS to T-MSIS only after it demonstrates operational
                  readiness to implement T-MSIS and successfully transmits T-MSIS data.
                  Additionally, CMS has not clearly defined when it expects all States to
                  complete T-MSIS implementation. In August 2012, CMS staff stated that
                  the goal was for all States to submit T-MSIS data as of January 1, 2014.
                  In anticipation of that goal, CMS indicated that its goal was to be ready to
                  accept data from States by that date. However, later, in 2013, CMS staff
                  indicated that CMS modified its expectation for States by saying that all
                  States should be either working on T-MSIS or committed to working on
                  T-MSIS by January 1, 2014. CMS added terms and conditions on funding
                  secured through an APD to reflect this shift. CMS staff indicated that
                  States that are not submitting T-MSIS data by January 1, 2014 must
                  develop a work plan to submit T-MSIS data as soon as possible.
                  What steps CMS might take to enforce any deadline is unclear. When
                  States asked whether there was flexibility in meeting the January 2014
                  deadline or whether there were penalties for not doing so, CMS staff
                  informed States that they were uncertain whether CMS would impose any
                  penalties and what those penalties might be. CMS’s ability to enforce a
                  deadline is a concern because 8 of the 39 remaining States asked CMS
                  about the January 2014 deadline during the readiness assessments; 3 States
                  asked specifically about potential penalties for not meeting the deadline.
                  Volunteer States Indicated That Their Data Systems
                  Did Not Have All T-MSIS Data Elements
                  Upon implementation, T-MSIS will likely not contain all data elements
                  across all volunteer States for two primary reasons. First, volunteer States
                  indicated that they do not have data available for all T-MSIS data elements
                  in their State data systems. Second, CMS’s T-MSIS processes allow
                  States to submit a subset of T-MSIS data elements.
                  Volunteer States do not have complete T-MSIS data available
                  Results from the data matching exercise indicated that no volunteer State
                  could make all of the 740 data elements available for T-MSIS. In other
                  words, States indicated that their data systems do not capture data that
                  could match every T-MSIS data element.


Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)              14
                  Volunteer States’ reported mixed abilities to make data available for
                  T-MSIS data elements. Data availability ranged from 9 percent of data
                  elements to 81 percent; 11 of the 12 volunteer States reported data
                  available for more than 50 percent of the data elements. Data for the
                  remaining data elements were either not currently available or available
                  with indications of gaps in the data.39 T-MSIS data element availability by
                  volunteer State is represented in Figure 2. To see each volunteer States’
                  data element availability by file, see Appendix E.
                  Figure 2: T-MSIS Data Availability by Volunteer State
                  100%

                    90%
                                                                                                                  Match not
                    80%                                                                                           available
                    70%

                    60%                                                                                           Match available
                                                                                                                  but data may
                    50%
                                                                                                                  have gaps
                    40%
                                                                                                                  Match available
                    30%

                    20%

                    10%

                       0%
                             CA      TX      MI     AR      NM      MN      AZ      TN        WA   OR   NC   NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.

                  CMS faces similar challenges with data availability for T-MSIS data
                  elements deemed critical for program integrity activities by the Center for
                  Program Integrity as it does for T-MSIS data elements as a whole. The
                  percentage of data elements that were critical for program integrity was
                  similar to the overall percentage of available T-MSIS data elements.
                  Specifically, States’ individual abilities to make data available for critical
                  program integrity data elements ranged from 9 percent to 84 percent; 11 of
                  the volunteer States reported at least 50 percent of these critical T-MSIS
                  elements as available. This similarity is unsurprising because the Center
                  for Program Integrity deemed two-thirds of the data elements as critical
                  for conducting national Medicaid program integrity activities.
                  States also indicated that data for T-MSIS data elements that were also
                  required as part of MSIS may not be available. Data for T-MSIS data
                  elements that were also in MSIS (28 percent of T-MSIS data elements)

                  39
                    Examples of gaps in data include: notes saying that a volunteer State had certain data
                  available only for fee-for-service claims or notes indicating that a volunteer State had
                  only a subset of the values that CMS requested for T-MSIS data elements. Data that are
                  not available are composed of all data elements for which volunteer States did not clearly
                  have matches available.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                                       15
                  were slightly more available than T-MSIS data elements overall.
                  Availability of these elements ranged from 13 percent to 87 percent; 11
                  volunteer States reported at least 50 percent availability.
                  A small percentage of the same T-MSIS data elements are available across
                  all volunteer States. Approximately 4 percent (27 data elements) of
                  T-MSIS data elements are available from all volunteer States. The
                  percentage of data elements available from volunteer States increased to
                  25 percent when we excluded California from our analysis. The results of
                  California’s data matching exercise indicated an unusually high
                  percentage of T-MSIS data elements for which matches were not
                  available.40 For a list of the 27 data elements that all volunteer States can
                  provide, see Appendix F.
                  Upon implementation, CMS will accept, as complete, the data
                  volunteer States have available
                  CMS will create an individualized control file for each volunteer State.
                  These files will specify the T-MSIS data elements that each volunteer
                  State reports it is able to provide upon implementation. These files will be
                  created after States submit formal mapping documents to CMS and CMS
                  reviews the results for completeness.41 States will need to justify their
                  reasons for not providing specific data elements and provide an action
                  plan to obtain the missing data elements. CMS will use each volunteer
                  States’ individualized files to determine whether their data submissions
                  are complete.
                  Modifications to volunteer States’ initial individualized control files after
                  implementation depend on the State. In some cases, the initial
                  individualized files will represent a subset of T-MSIS that encompasses all
                  of the data elements a State will be required to submit. For example,
                  Arkansas does not use managed care plans for its managed care program,
                  so it does not have the data elements requested in the T-MSIS managed
                  care plan information file, nor would CMS expect Arkansas to submit
                  those data. In other cases, CMS will alter States’ initial individualized
                  control file to include additional data elements as the States expand the
                  number of data elements they are able to provide.




                  40
                     Specifically, California indicated that 81 percent of elements were “TBD” (i.e., to be
                  determined). California indicated that mapping its data to the T-MSIS data elements
                  would involve reviewing 24 internal data sources.
                  41
                     States’ mapping documents indicate, in writing, which data elements available in their
                  State systems map to the T-MSIS data elements in the April 2013 data dictionary.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                         16
                  CMS and Volunteer States Reported Concerns About
                  the Accuracy of T-MSIS Data
                  CMS and volunteer States raised concerns about States’ ability to submit
                  accurate T-MSIS data. CMS, CMS’s contractor, and volunteer States
                  raised two types of concerns during the T-MSIS data matching exercise
                  about whether the T-MSIS data submitted by States will be accurate. The
                  first concern is that data from States may not reflect the definition of the
                  T-MSIS data element in question. For example, while CMS requests that
                  States report the data element for birth weight in grams, some States
                  indicated that they would report birth weight in pounds. The second
                  concern is that State source data may be inaccurate. For example, in some
                  cases, State agencies other than the States’ Medicaid agencies collect and
                  store the data necessary for T-MSIS. Some volunteer States indicated
                  concerns that they cannot guarantee the accuracy of data collected and
                  stored by these other State agencies.
                  CMS and its contractor described three reasons why T-MSIS data may not
                  reflect the data element definitions: (1) different derivation methods may
                  cause inconsistent data reporting, (2) T-MSIS data element definitions
                  may be unclear, and (3) States may submit data that do not match the data
                  element definitions.
                  CMS questioned whether volunteer States’ derivation methods when
                  pulling or deriving T-MSIS data elements from sources outside MMIS
                  would lead to inconsistent data reporting across volunteer States. For
                  example, CMS expressed concerns over whether the data elements
                  indicating an individual’s disability status were derived consistently across
                  States because States may use and store disability codes in different ways.
                  CMS had this concern for 19 percent of T-MSIS data elements.
                  Additionally, CMS’s contractor expressed concerns about whether CMS
                  clearly defined some data elements. Some data element definitions lacked
                  specificity that could lead to the submission of inaccurate data. For
                  example, CMS’s contractor noted that the definition for “billing location”
                  needed clarification. CMS’s contractor explained that volunteer States
                  were unsure whether this data element asks for the location of where a
                  service was performed or where the physician’s main business office is
                  located.42
                  CMS’s contractor also raised concerns that States may submit data that do
                  not match CMS data element definitions. CMS’s contractor noted that
                  many volunteer States collect data concerning beneficiary ethnicity and

                  42
                     Not all medical services are provided at the physician’s main business address; many
                  physicians perform services in both an office setting and a hospital setting.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                        17
                  financial assistance through State agencies other than the State Medicaid
                  agencies. These other State agencies may not code the data according to
                  T-MSIS data element definitions.
                  Volunteer States also expressed potential accuracy concerns for a small
                  percentage of data elements. Volunteer States’ comments indicated
                  potential accuracy concerns related to their ability to submit data that
                  reflected the data element definitions and the accuracy of their source data.
                  Potential accuracy concerns ranged by State between 2 percent and
                  9 percent of data elements for which they had matches available. For a
                  breakdown of available data elements with potential accuracy concerns by
                  State, see Table 2.
                  Table 2: Available T-MSIS Data Elements with Potential Accuracy
                  Concerns Identified by Volunteer State

                                        Number          Number of Accuracy                       Percentage With
                   States
                                       Available                  Concerns                    Accuracy Concerns

                    AR                       470                              18                               4%

                    AZ                       491                              15                               3%

                    CA                         69                              5                               7%

                    MI                       432                              18                               4%

                    MN                       479                              43                               9%

                    NC                       598                              33                               6%

                    NJ                       598                              13                               2%

                    NM                       479                              15                               3%

                    OR                       597                              11                               2%

                    TN                       547                              27                               5%

                    TX                       409                              24                               6%

                    WA                       575                              42                               7%
                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                                         18
                  CONCLUSION AND RECOMMENDATIONS
                  Although CMS and 12 volunteer States have made some progress with
                  T-MSIS, early T-MSIS implementation outcomes raised questions about
                  the completeness and accuracy of T-MSIS data upon national
                  implementation. Creating and obtaining a national Medicaid dataset is a
                  complex endeavor given the structure of the Medicaid program. To that
                  end, CMS has planned and designed a dataset that appears to addresses
                  various stakeholder data needs and concerns, including the planned
                  collection of data elements important for national Medicaid program
                  integrity strategies. However, early evidence raises concerns about
                  volunteer States’ abilities to submit complete and accurate T-MSIS data;
                  only 25 percent of T-MSIS data elements from the February 2012 data
                  dictionary were available from all volunteer States.43 Additionally, limited
                  implementation progress has delayed CMS’s and States’ abilities to test
                  monthly submission requirements.
                  The early outcomes of volunteer States’ efforts to implement T-MSIS may
                  also provide insight into the remaining 39 States’ abilities to implement
                  T-MSIS. Specifically, the remaining States may also not have all T-MSIS
                  data elements available in their data systems. Further, many of the
                  potential accuracy issues identified by CMS and volunteer States may also
                  exist in the remaining States’ T-MSIS data.
                  Complete, accurate, and timely national Medicaid data are essential to
                  help protect the integrity of Medicaid. CMS has multiple program
                  integrity projects underway that require T-MSIS data to be fully
                  functional. Additionally, OIG and other external stakeholders could more
                  effectively protect Medicaid with complete, accurate, and timely national
                  Medicaid data.
                  The earlier T-MSIS is fully functional, the earlier CMS and others can
                  support States by using advanced data analytics nationally to monitor
                  Medicaid to prevent fraud, waste, and abuse. To help create a fully
                  functional T-MSIS, we make the following recommendations to CMS.
                  CMS Should Establish a Deadline for When National T-MSIS
                  Data Will Be Available
                  CMS should provide a deadline so that stakeholders know when to expect
                  data that is of sufficient completeness and quality that it can be effectively
                  used for program integrity activities. CMS should provide a deadline by
                  which all States need to be submitting complete T-MSIS data. As part of
                  its effort to establish a deadline, CMS should provide a clear and

                  43
                       Excluding California.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                19
                  transparent timeline for the rest of the implementation process so that
                  States know what is expected of them. The timeline should clearly
                  identify when the remaining States must begin working on T-MSIS.
                  To communicate a deadline and timeline to States and stakeholders, CMS
                  could issue a State Medicaid Director letter or other policy guidance. This
                  letter or guidance could document what the deadline is for State
                  implementation and what is required of States as they implement T-MSIS,
                  as well as communicate to stakeholders when T-MSIS will be complete
                  and usable for national Medicaid activities, including program integrity.
                  To be more transparent about the status of T-MSIS implementation, CMS
                  could provide periodic updates to stakeholders. This could be
                  accomplished in numerous ways, such as a regularly updated Web site or
                  regular status updates sent to stakeholders. Updates should include a
                  status of each State’s T-MSIS implementation.
                  CMS Should Ensure That States Submit Required T-MSIS Data
                  CMS should clearly state that T-MSIS is required. If States fail to begin
                  submitting T-MSIS data by the implementation deadline, CMS should use
                  its enforcement mechanisms to compel States to begin submitting required
                  T-MSIS data. CMS has two statutory enforcement mechanisms (i.e.,
                  withhold matching payments for data systems or withhold matching
                  payments for medical assistance for managed care enrollees) that could be
                  used if States do not begin submitting T-MSIS data by the deadline.
                  CMS may also want to seek legislative authority to employ alternative
                  tools to compel State participation, such as interim sanctions for States
                  that do not implement T-MSIS by the deadline. Alternatively, CMS could
                  seek legislative authority to encourage State participation through an
                  incentive program.
                  This recommendation builds on a past OIG recommendation that CMS
                  enforce the Federal requirements that States submit managed care
                  encounter data.44 CMS responded that it intended to review statutory and
                  regulatory authorities to determine areas in which it could strengthen the
                  reporting of managed care encounter data.
                  CMS Should Ensure That T-MSIS Data Are Complete, Accurate,
                  and Timely Upon T-MSIS Implementation
                  CMS should ensure that the submitted T-MSIS data are complete,
                  accurate, and timely. The lack of complete, accurate, and timely MSIS
                  data prevented it from being used effectively to protect the integrity of


                  44
                       OIG, Medicaid Managed Care Encounter Data: Collection and Use.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                       20
                  Medicaid. CMS should work to ensure that these problems are not
                  repeated in T-MSIS.
                  CMS could establish standards for the completeness, accuracy, and
                  timeliness of T-MSIS data that States should meet once they have
                  implemented T-MSIS. These standards should establish specific
                  expectations for the completeness, accuracy, and timeliness of the data.
                  Establishing specific standards would allow CMS and other oversight
                  bodies to hold States accountable for the quality and timeliness of their
                  T-MSIS data.
                  To enforce these standards, CMS could use existing accountability tools.
                  Or CMS could seek legislative action for new tools that would compel
                  States to submit data that are complete, accurate, and timely.
                  CMS could work with States to ensure the submission of complete,
                  accurate, and timely data. For example, to improve the completeness of
                  T-MSIS data, CMS could work with States to identify ways that States
                  could collect information that they currently do not collect that is needed
                  to meet T-MSIS data requirements. To improve the accuracy of T-MSIS
                  data, CMS could create standard derivation methods for States to use to
                  ensure uniformly derived data elements.
                  OIG has previously made a recommendation to CMS to improve the
                  quality of nationally available Medicaid data so that better data are
                  available for program integrity efforts. Specifically, OIG recommended
                  that CMS improve the quality of data that program integrity contractors
                  can access for conducting data analysis.45 CMS responded that it intended
                  to develop improved data systems for Medicaid program integrity and that
                  T-MSIS was the chosen system.




                  45
                       OIG, Early Assessment of Review Medicaid Integrity Contractors.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                        21
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendations and provided details about
                  ongoing activities in support of our recommendations. OIG acknowledges
                  CMS’s already planned activities and encourages CMS to take the
                  additional steps necessary to fulfill our recommendations and to ensure
                  that T-MSIS is successful.
                  For the first recommendation, CMS indicated that it is engaged in
                  informing key internal stakeholders of when to expect data in the T-MSIS
                  format. CMS also stated that it is working to issue a State Medicaid
                  Director Letter that it believes will reinforce the importance of meeting the
                  T-MSIS compliance date. One week after providing comments to this
                  report, CMS issued this letter and provided a deadline for when “all States
                  are expected to demonstrate operational readiness to submit T-MSIS files,
                  transition to T-MSIS, and submit timely T-MSIS data.”46 OIG reiterates
                  that our recommendation is that CMS should establish a deadline for when
                  T-MSIS data that is complete, accurate, and timely will be available. This
                  deadline may be different than a compliance deadline when States are
                  capable of sending data to CMS in T-MSIS format. In addition, OIG
                  encourages CMS to think broadly about T-MSIS stakeholders. A number
                  of external stakeholders who conduct program integrity work could
                  benefit from better quality national Medicaid data. They should also be
                  updated as to the progress of T-MSIS and informed as to when T-MSIS
                  data will be available.
                  For the second recommendation, CMS believes that using the existing
                  statutory enforcement mechanisms is an effective way to ensure timely
                  T-MSIS data. OIG encourages CMS to include information about its
                  intent to use the statutory enforcement mechanisms to enforce T-MSIS
                  deadlines in any T-MSIS guidance provided to States. The State Medicaid
                  Director Letter did not address T-MSIS enforcement mechanisms.
                  For the third recommendation, CMS stated that it is working to create a set
                  of data quality rules to govern T-MSIS data submission. CMS also plans
                  to monitor States’ progress to ensure improved data reporting when
                  T-MSIS data are not available at implementation. OIG encourages CMS
                  to hold States accountable to the data quality rules.
                  Having access to complete, accurate, and timely national Medicaid
                  program integrity data is critically important. OIG will continue to



                  46
                       CMS, State Medicaid Director Letter.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)              22
                  monitor T-MSIS beyond the early implementation phase to determine
                  whether the identified vulnerabilities have been addressed.
                  We did not make any changes to the report based on CMS’s comments.
                  For the full text of CMS’s comments, see Appendix G.




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)        23
                  APPENDIX A
                  Implementation Milestones
                  The Centers for Medicare & Medicaid Services (CMS) created the
                  implementation milestones for States as a “high-level list of major
                  milestones that States should consider within their schedule for successful
                  implementation.”47
                  States may not have to complete all of the milestones. In fact, States may
                  not need to complete at least 2 of the 23 milestones. Specifically, not all
                  States will need to complete milestones 5 and 6 (stage 1). Some States
                  may not have to complete milestone 5—submitting an advanced planning
                  document (APD) to CMS—because they may not require financial
                  assistance to implement the Transformed Medicaid Statistical Information
                  System (T-MSIS.)48 Some States may not need to complete milestone 6—
                  hardware and software procurement completed—if they plan to use
                  existing hardware and software.
                  Additionally, CMS staff explained that States might not need to complete
                  the milestones in order. For example, States may test their ability to send
                  a sample of data to CMS (milestone 19) prior to completely mapping their
                  State data elements to T-MSIS data elements (milestone 9).
                  Planning
                       1.	 T-MSIS on-boarding/orientations completed
                       2.	 T-MSIS State-level project approvals obtained
                       3.	 T-MSIS detailed project schedule developed
                       4.	 T-MSIS project team identified
                       5.	 APD submitted to CMS
                       6.	 Hardware and software procurement completed
                       7. T-MSIS project planning activities completed
                  Design
                       8.	 Data dictionary/data file/business rules review completed
                       9.	 Data mapping for all eight files completed and base lined with
                           CMS


                  47
                    CMS, T-MSIS Implementation Tool Kit, version 2.0, § 3.4, March 12, 2013.
                  48
                    CMS requires States to submit APDs when they request financial assistance to make
                  changes to their Medicaid Management Information Systems. See 42 CFR § 433.112.
                  States use the APD to outline any changes they are making, the rationale for them, and
                  their expected costs.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                        24
                       10. Software development life cycle (SDLC) T-MSIS requirements
                           phase completed
                       11. Operational structure of data files defined
                       12. Extract validation and format design defined
                       13. SDLC T-MSIS design phase completed
                  Development
                       14. Data extraction process developed and tested (if applicable)
                       15. Data verification/business rules developed and tested
                       16. SDLC T-MSIS development phase completed
                  Testing
                       17. End-to-end data verification test planning complete – at State level
                       18. SDLC end-to-end integration testing complete – at State level
                       19. Successful transmission of test data to CMS
                       20. Successful transmission of data file (all four claims files, 

                           eligibility, provider, managed care, third-party liability)

                       21. Successful validation of all data files (all four claims files,
                           eligibility, provider, managed care, third-party liability) per
                           business rules
                       22. Production readiness approved by CMS (email to State)
                       23. Submission of first set of monthly production file




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                 25
                  APPENDIX B
                  Description of Documents Reviewed
                  Meeting minutes: 	                                Records of status update meetings
                                                                    that occurred between the Centers
                                                                    for Medicare & Medicaid Services
                                                                    (CMS), its contractor, and the
                                                                    volunteer States.
                  Project schedules and status updates: CMS records of initial schedules for
                                                        the Transformed Medicaid Statistical
                                                        Information System (T-MSIS)
                                                        implementation and the status of
                                                        implementation activities in the
                                                        volunteer States.
                  State Readiness Assessment Notes:	 Records of CMS’s readiness
                                                     assessment calls with the remaining
                                                     39 States to determine their ability to
                                                     implement T-MSIS.
                  T-MSIS Data Dictionaries: 	                       Documents containing the names,
                                                                    definitions, and format for T-MSIS
                                                                    data elements.
                  T-MSIS Implementation Tool Kit: 	 Roadmap for States to follow as they
                                                    continue, or begin, implementing
                                                    T-MSIS. Developed from CMS’s
                                                    experience with the volunteer States,
                                                    it contains milestones, guidance, and
                                                    best practices. CMS expected to
                                                    release this to all States in May 2013.




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                        26
                  APPENDIX C
                  Definitions of Office of Inspector General Completeness
                  Categories
                  Match Available:
                  Available: 	                Volunteer State indicated that it has this data
                                              element.
                  Derivable: 	                Volunteer State indicated that it could obtain the
                                              data element by performing a calculation, pulling
                                              from another file, or creating a crosswalk between
                                              existing data. For example, if a volunteer State
                                              indicated that a data element was stored in a
                                              different data system and required a crosswalk to
                                              fulfill the Transformed Medicaid Statistical
                                              Information System (T-MSIS) definition and
                                              format, we considered the data element derived.
                  Match Available But Data May Have Gaps:
                  Partially available: 	 Volunteer State indicated that it may not have all of
                                         the information requested in the T-MSIS data
                                         dictionary definition. For example, if a volunteer
                                         State indicated that it could provide a certain data
                                         element for only fee-for-service claims, we
                                         considered the data element to be partially
                                         available.
                  Match Not Available:
                  Not available: 	            Volunteer State indicated that it did not have the
                                              requested data element.
                  To be determined: 	         Volunteer State indicated that the requested data
                                              element was “TBD” or that it was still working to
                                              determine whether the requested data element was
                                              available.
                  Unknown: 	                  We could not determine the availability of the data
                                              element using information from the data matching
                                              exercise results spreadsheet, or the volunteer State
                                              did not provide a response to the requested data
                                              element.
                  Not applicable: 	           Volunteer State indicated that a data element does
                                              not apply to it. For example, Arkansas has a limited
                                              managed care program and indicated that almost all

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                    27
                                              of the data elements in the managed care file were
                                              not applicable.49




                  49
                     Arkansas operates its Medicaid program through a primary care case management
                  program. This means that providers are reimbursed on a fee-for-service basis for
                  treatment and that the State does not have managed care plan information. Very few of
                  the managed care plan information file data elements apply to Arkansas’s managed care
                  program.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                      28
                  APPENDIX D
                  Progress Toward Milestones


                  Table D-1: Individual States' Progress Toward T-MSIS* Milestones


                                                                                  -
                                                                                           IV
                                                                                  IV      .E      >.       0                   Cll            t:
                                                   Ill             IV      t:                     Cll     u                                   0
                                                   IV     IV      ·c:...   IV     0       0...    ...
                                                                                                  Ill     ">(         t:       Cll
                                                                                                                               Ill    Ill     c,
                     Milestone
                                                   Ill
                                                   t:
                                                   IV
                                                           t:
                                                           0
                                                           N
                                                          ·;:
                                                                  g
                                                                           01
                                                                           :E
                                                                                  Ill
                                                                                  Cll
                                                                                  t:
                                                                                           IV
                                                                                          (.J     ..,
                                                                                                  Cll      Cll
                                                                                                          ::!!
                                                                                                                      0
                                                                                                                      01
                                                                                                                      f!!
                                                                                                                               Ill
                                                                                                                               Cll
                                                                                                                              t:
                                                                                                                                      IV
                                                                                                                                       ><
                                                                                                                                      Cll
                                                                                                                                              t:
                                                                                                                                              :E
                                                   ...
                                                  .Ill:
                                                          <       (ij
                                                                           u
                                                                           :e     t:      ..c:    ~        ~                  t:      1­      Ill
                                                  <               (.J             :e      t:::
                                                                                          z
                                                                                           0
                                                                                                  Cll
                                                                                                  z       z
                                                                                                           Ql
                                                                                                                      0       Ql
                                                                                                                              1­              ~

                  1. T-MSIS
                  onboarding/orientations
                  completed


                  2. T-MSIS State-Level
                  project approvals
                  obtained

                  3. T-MSIS detailed
                  project schedule
                  developed

                  4 . T-MSIS project team
                   identified


                  5. Advanced planning
                  document submitted to
                  CMS**



                   6. Hardware and
                   software procurement
                   completed


                   7. T-MSIS project 

                   planning activities 

                   completed 



                   8. Data dictionary/data 

                   file/business rules 

                   review completed 



                   9. Data mapping for all 

                   eight fi les completed 

                   and base lined with 

                   CMS 


                   *T-MSIS =Transformed Medicaid Statistical Information System; **CMS =Centers for Medicare & Medicaid Services

                   Note: Y = Completed milestone; P = Milestone in progress; X = Milestone not necessary; U = Progress unknown by Office of
                   Inspector General (OIG); N = Milestone not complete.

                                                                                                                            continued on next page




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12 -0061 0)                                              29
                  Table D-1: Individual States' Progress Toward T-MSIS Milestones,
                  continued
                                                                                                        ns
                                                                                            ns          s:::        >­         0                                              s:::
                                                 til
                                                            ns          ns       s:::                               Q)         (,)
                                                                                                                                                         Q)
                                                                                                                                                                              £C)
                                                 ns                                         0til       0...                   ·;c          s:::          Q)
                                                 til        s:::       ...
                                                                       '2         ns
                                                                                  C)
                                                                                                        ns          !!!
                                                                                                                    ..,        Q)          0             til
                                                                                                                                                         til
                                                                                                                                                                    til
                                                                                                                                                                    ns        s:::
                    Milestone                    s:::
                                                 ns
                                                             0
                                                             N         g         :2         Q)
                                                                                            s:::       0
                                                                                                                    Q)
                                                                                                                              ::!1:
                                                                                                                                           C)
                                                                                                                                           ~
                                                                                                                                                         Q)
                                                                                                                                                         s:::
                                                                                                                                                                    )(
                                                                                                                                                                              :2
                                                 ...
                                                .ll::       ·;:
                                                            <          iii
                                                                                 i
                                                                                  (,)
                                                                                            s:::       ..r:::       ~          ~           0             s:::
                                                                                                                                                                    Q)
                                                                                                                                                                    1­        til
                                                <                                           i                                                                                 ~
                                                                       0                               1:           Q)         Q)                        Q)
                                                                                                        0           z         z                         1­
                                                                                                       z


                  10. Software
                  Development Life
                  Cycle (SDLC) T-MSIS               N           p          p            p       N           N             p           p           p             p     N              p
                  requirements phase
                  completed



                  11 . Operational
                  structure of data files           N              p         p          p       N           N             p           p           p             p     N              p
                  defined

                  12. Extract validation
                  and format design                 N           N          N            p       N           N             p           p           p             p     N              p
                  defined




                                                            I                                                                 I I I
                  13. SDLC T-MSIS
                  design phase                      N                        p          p       N           N             p                       p                   N
                  completed


                  14. Data extraction
                  process developed and
                  tested (If applicable)


                  15. Data
                                                    N              p         p          p          N           N          p           p           p


                                                                                                                                                      I I             N




                                                            •
                  verification/business                                                 p                                 p           p           p             p                    p
                                                        N                                          N           N                                                      N
                  rules developed and
                  tested


                  16. SDLC T-MSIS
                  development phase                     N          p         p          p          N           N          p           p           p             p         N          p
                  completed


                  17. End-to-end data
                  verification test                                                     p                                 p           p           p             p                    p
                                                        N          N         N                     N            N
                  planning complete - at
                  State level


                  18. SDLC end-to-end
                  integration testing                                                   p                                 p           p           p             p                    p
                                                        N          N         N                     N            N
                  complete - at State
                  level

                  Note: Y = Completed milestone; P = Milestone in progress; X = Milestone not necessary; U = Progress unknown by Office of
                  Inspector General (OIG); N =Milestone not complete.

                                                                                                                                                      continued on next page




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-0061 0)                                                                    30
                  Table D-1 : Individual States' Progress Toward T-MSIS Milestones,
                  continued


                                                                                   -
                                                                                           Cll




                     Milestone
                                                   1/)
                                                   Cll
                                                   1/)
                                                   c
                                                   Cll
                                                  .II:
                                                   ....
                                                              Cll
                                                              c
                                                              0
                                                               N
                                                              ·;::
                                                                     g
                                                                      Cll
                                                                     "2
                                                                      ....
                                                                     iii
                                                                             c
                                                                             Cll
                                                                             Cl
                                                                             :2
                                                                             0
                                                                                   Cll
                                                                                   0
                                                                                   1/)
                                                                                   Q)
                                                                                   c
                                                                                   c
                                                                                          u
                                                                                           c
                                                                                          0....
                                                                                           Cll

                                                                                          .s::.
                                                                                                   >­
                                                                                                   Q)
                                                                                                   I!!
                                                                                                  .,
                                                                                                   Q)
                                                                                                           0
                                                                                                           0
                                                                                                          ·;:c
                                                                                                           Q)
                                                                                                          :::!:
                                                                                                                       c
                                                                                                                       0
                                                                                                                       Cl
                                                                                                                       ~
                                                                                                                            Q)
                                                                                                                            Q)
                                                                                                                            1/)
                                                                                                                            1/)
                                                                                                                            Q)
                                                                                                                            c
                                                                                                                            c
                                                                                                                                   1/)
                                                                                                                                   Cll
                                                                                                                                   ><
                                                                                                                                   Q)
                                                                                                                                  1­
                                                                                                                                          -
                                                                                                                                          c
                                                                                                                                          0
                                                                                                                                          Cl
                                                                                                                                          c
                                                                                                                                          :c
                                                                                                                                          1/)

                                                  <           <              ~                                         0
                                                                     u             ~      t::
                                                                                          z
                                                                                           0
                                                                                                   Q)
                                                                                                  z==      Q)
                                                                                                          z==
                                                                                                                            Q)
                                                                                                                            1­            3
                  19. Successful
                  transmission of test data
                  toCMS




                  20. Successful
                  transmission of data file
                  (all four claims files,
                  eligibility, provider,
                  managed care, third­
                  party liability)




                  21. Successful
                  validation of all data files
                  (all four claims files,
                  eligibility, provider,
                  managed care, third­
                  party liability) per
                  business rules



                   22. Production
                   readiness approved by
                   CMS (email to State)



                   23 . Submission of first
                   set of monthly
                   production file


                   Source: OIG analysis of T-MSIS project schedules and volunteer State updates, 2013 .

                           =                              =
                   Note: Y Completed milestone; P Milestone in progress; X = Milestone not necessary; U      =Progress unknown by Office of
                   Inspector General (OIG); N =Milestone not complete .




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12 -0061 0)                                               31
                  APPENDIX E
                  Availability of Transformed Medicaid Statistical Information
                  System Data Elements by File for All Volunteer States

                  Table E-1: Availability of Inpatient Claim File, by State

                    100%
                     90%
                     80%
                     70%                                                                                          Match not available
                     60%
                     50%                                                                                          Match available but data may have
                     40%                                                                                          gaps

                     30%                                                                                          Match available
                     20%
                     10%
                      0%
                              CA    TX     MI    AR    NM MN        AZ     TN    WA OR        NC    NJ

                  Source: Office of Inspector General (OIG) analysis of data matching exercise results spreadsheet, 2013.



                  Table E-2: Availability of Long-Term-Care Claim File, by State

                    100%
                     90%
                     80%
                     70%                                                                                          Match not available
                     60%
                     50%                                                                                          Match available but data may have
                     40%                                                                                          gaps

                     30%                                                                                          Match available
                     20%
                     10%
                      0%
                              CA    TX     MI    AR    NM MN        AZ     TN    WA OR        NC    NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                                            32
                  Table E-3: Availability of Outpatient Claim File, by State

                    100%
                     90%
                     80%
                     70%                                                                                     Match not available
                     60%
                     50%                                                                                     Match available but data may have
                     40%                                                                                     gaps

                     30%                                                                                     Match available
                     20%
                     10%
                      0%
                             CA     TX    MI    AR    NM MN        AZ     TN   WA OR          NC   NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.




                  Table E-4: Availability of Pharmacy Claim File, by State

                    100%
                     90%
                     80%
                     70%                                                                                     Match not available
                     60%
                     50%                                                                                     Match available but data may have
                     40%                                                                                     gaps

                     30%                                                                                     Match available
                     20%
                     10%
                      0%
                             CA     TX    MI    AR    NM MN        AZ     TN   WA OR          NC   NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.




                  Table E-5: Availability of Eligibility File, by State

                    100%
                     90%
                     80%
                     70%                                                                                     Match not available
                     60%
                     50%                                                                                     Match available but data may have
                     40%                                                                                     gaps

                     30%                                                                                     Match available
                     20%
                     10%
                      0%
                             CA     TX    MI    AR    NM MN        AZ     TN   WA OR          NC   NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.



Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                                       33
                  Table E-6: Availability of Managed Care File, by State

                    100%
                     90%
                     80%
                     70%                                                                                     Match not available
                     60%
                     50%                                                                                     Match available but data may have
                     40%                                                                                     gaps

                     30%                                                                                     Match available
                     20%
                     10%
                      0%
                             CA     TX    MI    AR    NM MN        AZ     TN   WA OR          NC   NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.




                  Table E-7: Availability of Provider File, by State

                    100%
                     90%
                     80%
                     70%                                                                                     Match not available
                     60%
                     50%                                                                                     Match available but data may have
                     40%                                                                                     gaps

                     30%                                                                                     Match available
                     20%
                     10%
                      0%
                             CA     TX    MI    AR    NM MN        AZ     TN   WA OR          NC   NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.




                  Table E-8: Availability of Third-Party Liability File, by State

                    100%
                     90%
                     80%
                     70%                                                                                     Match not available
                     60%
                     50%                                                                                     Match available but data may have
                     40%                                                                                     gaps

                     30%                                                                                     Match available
                     20%
                     10%
                      0%
                             CA     TX    MI    AR    NM MN        AZ     TN   WA OR          NC   NJ

                  Source: OIG analysis of data matching exercise results spreadsheet, 2013.



Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                                       34
                  APPENDIX F
                  Transformed Medicaid Statistical Information System (T-MSIS)
                  Data Elements Available in All Volunteer States


                  Table F-1: T-MSIS Data Elements That All Volunteer States Reported as
                  Match Available

                   T-MSIS File                                                                                       Data element

                   Claim: Inpatient                                                                                  Revenue units

                   Claim: Pharmacy                            Medicaid Statistical Information System (MSIS) identification number

                   Claim: Pharmacy                                                                             Prescription fill date

                   Claim: Pharmacy                                                                            Prescription number

                   Eligibility                                                                              Basis of eligibility code

                   Eligibility                                                         Children’s Health Insurance Program code

                   Eligibility                                                                                         County code

                   Eligibility                                                                                        County name

                   Eligibility                                                                                          Date of birth

                   Eligibility                                                                                    Days of eligibility

                   Eligibility                                                                                    Eligible ZIP Code

                   Eligibility                                                                           Eligibility status end date

                   Eligibility                                                                           Eligibility status start date

                   Eligibility                                                                           Federal fiscal year month

                   Eligibility                                                                                           First name

                   Eligibility                                                                         Health insurance coverage

                   Eligibility                                                                                           Last name

                   Eligibility                                                                      Maintenance assistance status

                   Eligibility                                                           Managed care plan enrollment end dates

                   Eligibility                                                          Managed care plan enrollment start dates

                   Eligibility                                                                                         Middle initial

                   Eligibility                                                                                  MSIS case number

                   Eligibility                                                                            Restricted benefits code

                   Eligibility                                                                                                   Sex

                   Eligibility                                                                             Social Security Number

                   Eligibility                                                                                                  State




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                              35
                  Table F-1: T-MSIS Data Elements That All Volunteer States Reported as
                  Match Available, continued

                   T-MSIS File                                                                                        Data element
                                                                                                                                   50
                   Eligibility                                                                                          ZIP Code

                  Source: Office of Inspector General analysis of data matching exercise results spreadsheet, 2013.




                  50
                    In the data matching exercise results spreadsheet, this data element was indicated as
                  duplicative. Notes in the spreadsheet indicate that it was to be removed from the
                  February 2013 data dictionary.

Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)                                            36
                    APPENDIXG
                    Agency Comments



 \....4-	
  /"'''<q«t.
                DEPARTMENT OF HEALTH &'HUMAN SERVICES                                        Centern for Medicare & Medicaid Services


                                                                                             Administrator
                                                                                             Washington, DC 20201




               DATE:            AUG 15 2013

               TO: 	          Daniel R. Levinson 

                              !~spector General 



               FROM: 	        Nlari~ T~e;
                                                   /S/
                                                    

                              Adminislratm: 


               SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Early Outcomes Show Limited
                          Progress for the Transformed Medicaid Statistical Information System" (OEI-05­
                          12-00610)


               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
               comment on the above-referenced draft report. CMS concurs with all recommendations and is
               actively engaged in tasks to address these recommendations as part of the normal course of
               project activities. Please review additional details below relating to the recommendations, which
               have been broken out by topic area to more succinctly address the recommendation areas.

               OIG Recommendation 1
               The OIG recommends that CMS Should Establish a Deadline for When National T-MSIS Data
               Will Be Available.

               CMS should provide a deadline so that stakeholders know when to expect data that is of
               sufficient completeness and quality that it can be effectively used for program integrity activities.
               CMS should provide a deadline by which all States need to be submitting complete T-MSIS data.
               As part ofits effort to establish a deadline, CMS should provide a clear and transparent timeline
               for the rest ofthe implementation process so that States know what is expected ofthem. The
               time line should clearly identify when the remaining States must begin working on T-MSIS.

               CMS Response

               We concur. CMS is actively engaged in informing key stakeholders via CMS senior leadership
               data councils of when to expect Medicaid and Children's Health Insurance Program (CHIP)
               operational data in the Transformed Medicaid Statistical Information System (T-MSIS) format.
               Standardized reports reflecting critical milestones in T-MSIS implementation activities are
               distributed and reviewed by said councils. In addition, all of the states have been instructed to
               add a series of critical milestones that are to be integrated into their internal project work plans .




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-0061 0)                                                37
Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)   38
Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)   39
Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)   40
Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)   41
Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)   42
Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)   43
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago regional
                  office, and Thomas Komaniecki, Deputy Regional Inspector General.
                  Nicole Hrycyk served as the team leader for this study, and Carolyn
                  Pichert served as the lead analyst. Other Office of Evaluation and
                  Inspections staff from the Chicago regional office who conducted the
                  study include Emily Rowe and Cassie Yarbrough. Central office staff who
                  provided support include Kevin Farber and Kevin Manley.




Early Outcomes Show Limited Progress for T-MSIS (OEI-05-12-00610)            44
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
